5024
IN THE
UNITED STATES SUPREMECOURT

NO.

CALVIN EARL BROWN, PRO SE
PETITIONER,
supreme Court, US'
FILED

V.

APR 2 4 2020

JENNIFER KNOX, CLERK OF SUPERIOR,
COURT OF WAKE COUNTY,

°mCEOFTHECLERK

PETITIONEE.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

CALVIN EARL BROWN, PRO SE
31 CHERRY LANE
CHOCOWINITY, NC 27817
PHONE: 252-946-0083
EMAIL: calbrown51@gmail.com

Question(s) Presented
Whether it is unconstitutional that this pro se litigant (Petitioner) is denied the ability to be able to
challenge the explicit correctness of a state official, Clerk of Superior Court of Wake County,
Jennifer Knox, in her individual capacity, and under the color of her authority, which she denied
him the North Carolina State Court System's appellate process. Whether the clerk, the
government, recklessly, intentionally (on purpose) wantonly, or with malice interfered with bias
the Petitioner's due process of law, and equal protection of law rights.
Whether the lower courts (US District and the US Court of Appeals) erred by not
allowing the complaint process to follow through, essentially, not serving the
respondents in this case; wherefore, was the decision below the standard of review in error as
well as, unconstitutional.
Whether the aforementioned violation of the due process of law and equal
protection of law, regulated by the Fifth and/or Fourteenth Amendment of the
United States/North Carolina Constitution, limits the power of the federal and
state government to violate, where it explicitly prohibits states from violating an
individual's rights of the due process of law and equal protection of law.
Whether axiomatic issues such as Superior Court transcripts, evaluation
Office of Administrative Hearings (OAH) evidential statement in No 19 (Final Order) in lui, NC Dept.
Of Revenue and the Superior Court of Wake County, which records entries of the Motion for
Reconsideration and the Notice of Appeal, and whether (entries Dec. 19, 2017 and Oct. 18, 2018)
can be admitted as evidence.
Whether NC Gen. Stat. Sec. 105-241.23 (a) and NC Gen. Stat. Sec. 105-237 is ambiguous or
constitutional, whether there is a jurisdiction matter in the General Jurisdiction of the Superior
Court, and whether Guthrie and Stanback conflict
Whether it is required, under Procedural Due Process No. 10, the US Court of Appeals prepare
written findings of fact and reasons for its decision.

LIST OF PARTIES
CALVIN EARL BROWN, PRO SE (PETITIONER)
JENNIFER KNOX, CLERK OF THE SUPERIOR COURT OF WAKE COUNTY (PETITIONEE)
(NORTH CAROLINA DEPT OF REVENUE) (PETITIONEE)

2

TABLE OF CONTENTS

Question(s) Presented
LIST OF PARTIES
TABLE OF CONTENTS
TABLE OF APPENDICES
TABLE OF AUTHORITES CITED
PETITION FOR WRIT OF CERTIORARI
OPINION BELOW
STATEM ENT OF JURISDICTION
CONSTITUTIONAL PROVISIONS INVOLVED
STATUTORY PROVISIONS INVOLVED
UNITED STATED CODES INVOLVED
FEDERAL RULES OF CIVIL PROCEDURES INVOLVED
FEDERAL RULES OF EVIDENCE INVOLVED
NORTH CAROLINA RULES OF CIVIL PROCEDURES INVOLVED
STATEMENTOFTHE CASE
REASON FOR GRANTING THE PETITION
SUM MARY OF ARGUMENT
ARGUMENT
PUBLICATIONS
INDEX
APPENDIX

3

PROOF OF SERVICE
INDEX OF APPENDICES
U. S. Court of Appeals, (Fourth Cir.) Case No. No. 19-2011 (Mandate)
Filed January 22, 2020
U.S. District Court (EDNC) Order Case No. 4:19-cv-108FL
Filed September 11, 2019
U.S. District Court (EDNC) Order M&R Case No. 4:19-cv-108FL
Filed August 8, 2019
U.S. District Court (EDNC) Order Case No. 4:19-cv-108FL
Filed August 26, 2019
OTHER RELATED ORDERS:
U. S. Courts of Appeals (Fourth Cir.) Case No. 19-1500 (Mandate)
Filed July 18, 2019
U.S. District Court (EDNC) Order Case No. 4:19-cv-199FL
April 25, 2019
U.S. District Court (EDNC) Order Case No. 4:19-cv-199FL
April 4, 2019
U.S. District Court (EDNC) Order/Motion Denied Case No. 4:19
-CV-199FL Filed March 14, 2019
U.S. District Court (EDNC) Order Case No. 4:19-cv-199FL
March 1, 2019
U.S. District Court (EDNC) Order Case No. 4:19-cv-199FL
Filed February 4,2019
U.S. District Court (EDNC) Order Case No. 4:19-cv-199FL
Filed January 17, 2019

4

Superior Court of Wake County 17 CVS 9850
Filed December 5, 2017
The Office of Administration Hearings (17 Rev 03355)
Filed July 28, 2017

TABLE OF AUTHORITIES
CASES
McCray v. Maryland456 F2d. 1. 4 (1972)..... pp. 18,22-24, 26,32
Myer v. Stoney, No. l:18-cv-00772 LMB-MSN (E.D. Va. June 21, 2018)

p 22-24

Pierson v. Ray, 386 U.S. supra at 554-555, 87 S.Ct. 1213,18 L.Ed.2d 288. ....p. 24
Washington v. Official Court Stenographer. 251 F. Supp 945 (E.D. Pa (1966)

p. 24

Whirl v. Kern, 407 F. 2d 781 (5th Cir.) cert den. 396 U.S. 901. 90 Ct. 210. 24 L. Ed. 2d 177 (1969)
p. 24
Conley v Gibson 355 US 41 (1957) .... Pp. 32
Haines v. Kerner. 404 U.S. 519, 92 S.Ct. 594, 30 L.Ed.2d 652 (1972) pp. 7, 31
Boddie v. Connecticut, 401 U.S. 371, 376, 91 S.Ct. 780, 28 LEd.2d 113 (1971) (access to courts
protected by due process clause)... p.31
Chambers v. Baltimore &. Ohio Railroad Co.. 207 U.S. 142, 28 S.Ct. 34, 52 L.Ed. 143 (1907) p. 31
Ginsburg v. Stern, 125 F. Supp. 596, 601 (W.D.Pa.1954) ... p.31
California Motor Transport Co. v. Trucking Unlimited, 404 U.S. 508, 92 S.Ct. 609, 30 LEd.2d 642
(1972) ... p.31
Bivens v. Six Unknown Named Federal Narcotic Agents 403 US 388 (1971) .... p. 31
Stump v. Sparkman 435 U S 349 (1978) ...pp. 18,23,25,29-30,32
Bell Atlantic v. Twomblv, 550, U. S. 544 (2007)... p. 30
Pricev. Barry, 53 F 3d. 366 (argued in Sep. 9. 2019 petitioner's District Court filing) ... p. 36
Gideon v. Wainwright, 372 U.S. 335 (1963)..(See App)

5

Evans v. B. F. Perkins Co. 166 f. 3d 642, 6447 (4th Cir. 1999) (quoting Richmond Fredericksburg &
Potomac R. Co. V. United States. 945 F. 2d 765.768 (4th Cir. 1991). ....(See App.)
Scheuer v. Rhodes. 416 U. S. 232, 94 S. Ct. 1683 (1974) ...(See App.)
Harris v. NCNB, 85 NC. App 669, 355 S.E. 2d 838 (1987). ...(See App.)
Hyde v. Abbott Lab- Inc 123 NC App. 572 473 S. E. 2d 680 (1996) .... (See App.)
Branch Banking & Trust co. v. Lighthouse Fin Corp. 2005 NCNB 3 (NC Super. Ct. July 13, 2005)
(See App.)
Stanback v. Stanback. 279 NC 181 254 S. E. 2d 611 (1979) ...(See App.)
Hans v. Louisiana. 134 U. S. 1. 21.10 S. Ct. 504. 509. 33L. Ed. 842. 849 (1890). The North
Carolina Supreme Court ...[See App.)
Prudential Ins. Co. V. Powell. 217 N.C. 495. 499. 8 S.E.2d 619.621 (1940)... (See App)
Guthrie v. NC Port Authority. 307 NC at 5356. 299. S. E. 2d at 618. 625 (1983) ...p.l8...(App)
Green V. Kearney, 203 NC App. 260. 271-272. 690 SS. E. 2d 755. 764 (2010) ...(See App)
Battle Ridge Co. v. NC Dept of Transp.. 161 NC App 156. 157 587 SE 2d 426. 427 (2003)
258 NC 233. 594 S.E.2d 191 (2004) ...(See App)
Garrett v. Elko. 120 F. 3d 261. 1997 WL 457667th Cir. Aug. 12. 1997) .... p. 21
DeSole v. United States of America. 947 F. 2d 1169 (4th Cir. 1993) ...p. 21
Mvlan Labs v. Matkari. 7 F. 3d 1130 (4th Cir. 1993) cert, denied. 510 U.S. 1197 (1994) ...p. 21
Haferv. Melo, 502 U. S. 21 (1991) ...p.18
Cooper v. Aaron 258 U.S. 1 (1958) ...p.18
Hale v. Henkle, 201 U.S. 43 ...p. 18
United States v. Lee, 106 u.s. 196 (1882) ...p.7
Butzv. Econonou, 438 U S478 (1978) ...p. 24
Wood v. Strickland. 420 U S 308 (1975)...p. 24
Bowers v. Hardwick. 478 US 186. 189 (1986). .... p.36

6

PUBLICATIONS
2 Harper & James. The Law of Torts, supra at 1645-46 (1956) p.22

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Calvin E. Brown, pro se, asks the Court to take a judicial notice of the fact that he is without
counsel, is not schooled in the law and legal procedures, and is not licensed to practice law. The
petitioner declares, his pleadings must be read and construed liberally. [See Haines v. Kerner,
401 US at 520 (1980)1. Further Brown believes that this court has a responsibility and legal duty
to protect all his constitutional and statutory rights. See United States v. Lee, 106 US 196, 220
(1882).
Petitioner respectfully prays for a Writ of Certiorari issue to review the judgements below
Brown, on the behalf of himself, hereby petitions for a Writ of Certiorari to review the
judgements of the United States District Court, for the Eastern District of North Carolina. As
well, petitions for review the Superior Court of Wake County, where there might be an element
of unconstitutionality in two revenue section laws [NCGS Sec.105-241.23(a) and NCGS Sec. 105237]. A conflict exists between the Guthrie and Stanback Courts, and a matter of jurisdiction in
the Superior Court. There was no fair opportunity to support my complaint or good faith
determinations in either the United State District Court (EDNC) or the United State Court of
Appeals for the Fourth Cir., which both courts made errors in dismissing the complaint.

OPINION BELOW
The opinion of the United States District Court for the Eastern District of North Carolina is listed
as, Brown v. Jennifer Knox, Clerk of the Superior Court of Wake County (Brown 2, second filing);
non-published, where the first filing is Brown v. The Superior Court of Wake County (Brown 1).
The opinion of the United States Court of Appeals, for the Fourth Circuit is listed as Brown v.
Jennifer Knox, second filing; non-published. The first filings, Brown v. The Superior Court of
Wake County.

7

STATEMENT OF JURISDICTION
The petition for review en banc was denied in the Fourth Circuit
The judgement (Case No. 19-2011) of the United States Court of Appeals for the Fourth Circuit
was entered December 19, 2019, but no factual reasoning was clearly pointed out. A timely
petition for rehearing was filed on December 22,2019. The petition for rehearing was denied
and was mandated January 30,2020 (See 14th Amend. Procedural Due Process. No. 10).

FEDERAL RULES OF CIVIL PROCEDURE INVOLVED
FRCP, Rule 58
Rule 58 FEDERAL RULES OF CIVIL PROCEDURE 78 (As amended Dec. 29, 1948, eff. Oct. 20,1949;
Apr. 30, 2007, eff. Dec. 1, 2007.) Rule 58. Entering Judgment (a) SEPARATE DOCUMENT. Every
judgment and amended judgment must be set out in a separate document, but a separate
document is not required for an order disposing of a motion:
Rule 79 Records Kept by the Clerk (See Appendix)

FEDERAL RULES OF EVIDENCE INVOLVED
Rule 201 (B)
Rule 201. Judicial Notice of Adjudicative Facts
Primary tabs
(a) Scope. This rule governs judicial notice of an adjudicative fact only, not a legislative fact.
(b) Kinds of Facts That May Be Judicially Noticed. The court may judicially notice a fact that is
not subject to reasonable dispute because it:
(1) is generally known within the trial court's territorial jurisdiction; or
(2) can be accurately and readily determined from sources whose accuracy cannot reasonably
be questioned.

NORTH CAROLINA RULES OF CIVIL PROCEDURES INVOLVED
NC Rules of Civ. P. Rule 12(b) 12 (b)(4) 12(b)(5)
Rule 12(b) provides seven bases for a motion to dismiss a complaint or claim: (1) Lack of
jurisdiction over the subject matter (2) Lack of jurisdiction over the person (3) Improper venue
8

division (4) Insufficiency of process (5) Insufficiency of service of process (6) Failure to state a
claim upon which relief can be granted (7) Failure to join a necessary party. Subsections (l)-(5)
and (7) are jurisdictional or process-related. Subsection (6) — perhaps the basis judges see
most often — is based on the substance of the allegations. Each basis is often stated as an
affirmative defense in a responsive pleading rather than made by separate motion). Specific
timing requirements apply to several of these motions. Certain Rule 12 motions are waived if
not made within the specified time. Rule 12(b) (g) Must be made prior to (or within) responsive
pleading May be made before trial or attrial (any time before verdict) May be made anytime
by parties or court (no waiver) (2) Lack of jurisdiction over the person (3) Improper venue or
division (4) Insufficiency of process (5) Insufficiency of service of process (6) Failure to state a
claim upon which relief can be granted (7) Failure to join a necessary party (1) Lack of
jurisdiction over the subject matter) There is also a consolidation requirement for subsections
(b)(2) through (b)(5). Each of the bases "then available" to a party must be stated with the
other bases in that party's motion, Rule 12(g); Evangelistic Outreach Center v. General Steel
Corp., 181 N.C. App. 723, 725 (2007) The judge may hear any Rule 12(b) motion prior to trial or
at trial Rule 12(d).

CONSTITUTIONAL PROVISIONS INVOLVED
FOURTEENTH AMENDMENT OF THE UNITED STATES CONSTITUTION provides:
No State shall make or enforce any law which shall abridge the privileges and immunities of
citizens of the United States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its jurisdiction the equal
protection ofthe laws. Jan 1,1984.

FIRST AMENDMENT OF THE UNITED STATES CONSTITUTION provides:
Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press; or the right of the people
peaceablyto assemble, and to petition the Government for a redress of grievances.

THE DUE PROCESS OF LAWOF THE FOURTEENTH AMENDMENT provides:
States that no person shall be "deprived of life, liberty, or property without due process of
law." Usually, "due process" refers to fair procedures.

9

Substantive Due Process provides:
In United States constitutional law, substantive due process is a principle allowing courts to
protect certain fundamental rights from government interference, even if procedural
protections are present or the rights are not specifically mentioned elsewhere in the US
Constitution.
Procedural Due Process provides:
Procedural due process refers to the constitutional requirements that when the federal
government acts in such a way that denies a citizen of a life, liberty, or property interest, the
person must be given notice, the opportunity to be heard,...
Procedural Due Process (cont.)
1. An unbiased tribunal.
2. Notice of the proposed action and the grounds asserted for it.
3. Opportunity to present reasons why the proposed action should not be taken.
4. The right to present evidence, including the right to call witnesses.
5. The right to know opposing evidence.
6. The right to cross-examine adverse witnesses.
7. A decision based exclusively on the evidence presented.
8. Opportunity to be represented by counsel.
9. Requirement that the tribunal prepare a record of the evidence presented
10. Requirement that the tribunal prepare written findings of fact and reasons
for its decision.

10

THE FIFTH AMENDMENTOFTHE UNITED STATES CONSTITUTION provides:
Requires the United States government to practice equal protection.... Equal protection
forces a state to govern impartially—not draw distinctions between individuals solely on
differences that are irrelevant to a legitimate governmental objective.

FOURTEENTH AMENDMENTOFTHE UNITED STATES CONSTITUTION provides:
Section 1.
All persons born or naturalized in the United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state wherein they reside. No state shal I make or
enforce any law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection of the laws.

EQUAL PROTECTION OF LAW CLAUSE provides:
(APPLIED FROM THE FOURTEENTH AMEND.)
NORTH CAROLINA GENERAL STATUES. SUBCH. IX, ART. 27. SEC 1-277 provides:
Appeal from superior or district court judge, (a) An appeal may be taken from every judicial
order or determination of a judge of a superior or district court, upon or involving a matter of
law or legal inference, whether made in or out of session, which affects a substantial right
claimed in any action or proceeding; or which in effect determines the action and prevents a
judgment from which an appeal might be taken; or discontinues the action or grants or
refuses a new trial, (b) Any interested party shall have the right of immediate appeal from an
adverse ruling as to the jurisdiction of the court over the person or property of the defendant
or such party may preserve his exception for determination upon any subsequent appeal in
the cause. (1818, c. 962)

NORTH CAROLINA GENERAL STATUES CH. 14. ART. 31. SEC. 14-230 provides:
Willfully failing to discharge duties.

11

If any clerk of any court of record, sheriff, magistrate, school board member, county
commissioner, county surveyor, coroner, treasurer, or official of any of the State institutions,
or of any county, city or town, shall willfully omit, neglect or refuse to discharge any of the
duties of his office, for default whereof it is not elsewhere provided that he shall be indicted,
he shall be guilty of a Class 1 misdemeanor. If it shall be proved that such officer, after his
qualification, willfully and corruptly omitted, neglected or refused to discharge any of the
duties of his office, or willfully and corruptly violated his oath of office according to the true
intent and meaning thereof, such officer shall be guilty of misbehavior in office, and shall be
punished by removal therefrom under the sentence of the court as a part of the punishment
for the offense. (1901, c. 270)

NORTH CAROLINA GEN. STAT. SEC 105-241.17 provides:
105-241.17. Civil action challenging the statute as unconstitutional.
A taxpayer who claimsthat a tax statute is unconstitutional may bring a civil action in the Superior
Court of Wake County to determine the taxpayer's liability under that statute if all the conditions
in this section are met. In filing an action under this section, a taxpayer must follow the
procedures for a mandatory business case set forth in NCGS 7A-45(b) through (f). The conditions
for filing a civil action are:
(1)

The taxpayer exhausted the prehearing remedy by receiving a final determination after a
review and a conference.

(2)

The taxpayer commenced a contested case at the Office of Administrative Hearings.

(3)

The Office of Administrative Hearings dismissed the contested case petition for lack of
jurisdiction because the sole issue is the constitutionality of a statute and not the
application of a statute.

(4)

The taxpayer has paid the amount of tax, penalties, and interest the final determination
states is due.

(5)

The civil action is filed within two years of the dismissal. (2007-491, s. 1.)

NORTH CAROLINA GEN. STAT. ART.31 SEC. 143-291 provides:
143-291.

Industrial Commission constituted a court to hear and determine claims;
damages; liability insurance in lieu of obligation under Article.

12

(a) The North Carolina Industrial Commission is hereby constituted a court for purpose of
hearing and passing upon tort claims against the State Board of Education, the Board of
Transportation, and all other departments, institutions and agencies of the State. The Industrial
Commission shall determine whether or not each individual claim arose as a result of the
negligence of any officer, employee, involuntary servant or agent of the State while acting within
the scope of his office, employment, service, agency or authority, under circumstances where
the State of North Carolina, if a private person, would be liable to the claimant in accordance
with the laws of North Carolina. If the Commission finds that there was negligence on the part of
an officer, employee, involuntary servant or agent of the State while acting within the scope of
his office, employment, service, agency or authority that was the proximate cause of the injury
and that there was no contributory negligence on the part of the claimant or the person in whose
behalf the claim is asserted, the Commission shall determine the amount of damages that the
claimant is entitled to be paid, including medical and other expenses, and by appropriate order
direct the payment of damages as provided in subsection (al) of this section, but in no event shall
the amount of damages awarded exceed the amounts authorized in G.S. 143-299.2 cumulatively
to all claimants on account of injury and damage to any one person arising out of a single
occurrence. Community colleges and technical colleges shall be deemed State agencies for
purposes of this Article. The fact that a claim maybe brought under more than one Article under
this Chapter shall not increase the foregoing maximum liability of the State.
(al)
The unit of State government that employed the employee at the time the cause of
action arose shall pay the first one hundred fifty thousand dollars ($150,000) of liabi lity, and the
balance of any payment owed shall be paid in accordance with G.S. 143-299.4.
If a State agency, otherwise authorized to purchase insurance, purchases a policy of
(b)
commercial liability insurance providing coverage in an amount at least equal to the limits of the
State Tort Claims Act, such insurance coverage shall be in lieu of the State's obligation for
payment under this Article.
(c)
The North Carolina High School Athletic Association, Inc., is a State agency for purposes
of this Article, and its liability in tort shall be only under this Article. This subsection does not
extend to any independent contractor of the Association. The Association shall be obligated for
payments under this Article, through the purchase of commercial insurance or otherwise, in lieu
of any responsibility of the State or The University of North Carolina for this payment. The
Association shall be similarly obligated to reimburse or have reimbursed the Department of
Justice for any expenses in defending any claim against the Association under this Article.

13

UNITED STATES CODES INVOLVED
42 U.S. Code § 1983. Civil action for deprivation of rights

Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia, subjects, or causes to be subjected, any citizen of
the United States or other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or other proper proceeding for redress, except
that in any action brought against a judicial officer for an act or omission taken in such officer's
judicial capacity, injunctive relief shall not be granted unless a declaratory decree was violated,
or declaratory relief was unavailable. For the purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia shall be a statute of the District of Columbia.
28 USC 1331. A Fed. Question
In United States law, federal question jurisdiction is the subject-matter jurisdiction of United
States federal courts to hear a civil case because the plaintiff has alleged a violation of the
United States Constitution, federal law, or a treaty to which the United States is a party.

THE UNITED STATE SUPREME COURT. RULE 10(a) provides:
A United States Court of Appeals (4th Cir.) has entered a decision in conflict with the decision of
the same United States Court of Appeals (4th Cir./ ambiguousness) on the same important
matter; has decided an important federal question in a way that conflicts with a decision by a
state court of last resort; or has so far departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower court, as to call for an exercise of this
Court's supervisory power.

PUBLICATIONS
2 Harper & James, The Law of Torts, supra at 1645-46 (1956) p.22

14

STATEMENT OF THE CASE
The petitioner, Calvin Earl Brown, a citizen of Beaufort County, in the state of North Carolina,
and under the United States of America brings forth an issue. This issue has risen out of an
issue of the Office of Administrative Hearings (OAH) 17 REV 03355, where the petitioner
charged that the respondents, NC Dept of Revenue (NCDOR) violated misrepresentation,
negligence, and procedural due process of law. The petitioner there argued, this was due to
inconsistent and deceptive behaviors of the respondents of the NCDOR, while conducting a
collection for tax payments the petitioner owed for 2015. There is further evidence in the
exploration of deceptive behavior such as, Exhibits /Items (1) a Notice of Garnishment (2) IRS
Assessment (3) Respondent's Refund Check (4) letter from petitioner arguing deceptive tactic
(5) copy of a time stamped Form R-1033 installment agreement. The time stamped installment
agreement halted any further diversionary tactics of the respondent and produced the refund.
Statement No. 19, of the OAH Final Order (Finding of Facts, pg. 4) indicates an OAH's
investigation implicating the Dept of Revenue of the charges. However, the OAH dismissed the
case, for the due process claim related to the Tort Claim Act, rather than an actual contested
tax claim. Due to the OAH recommendations, the case took route as a state issue in the
Superior Court of Wake County, 17 CVS 9850, where the petitioner charged his state issue was
erroneously dismissed. During the trial closing, the judge asked whether I needed to speak,
when I re-iterated my concerns for my due process of law rights. The judge returned, "you'll
call the clerk's office on Friday (December 8, 2017) to determine", although the installment
agreement NCGS Sec. 105-237; might unconstitutionally conflict with NCGS. Sec. 105-241.23
15

(a) [including all jeop. tax assess.]; even though the clerk's office, off record, indicates the'court
ended December 5,2017. Attempts to have the case reconsidered were not answered, and the
resulting Notice of Appeal did not receive movement from the Clerk of Superior Court. The
petitioner charges, not responding to the responsibilities and duties of the office would be
grossly negligent, and elements that are willful and wanton. To say the same, the petitioner in
open court on December 5, 2017, asked the presiding judge for his due process of law rights,
verified by the last page, final paragraph of the court's transcript. The petitioner then
proceeded to the United States District Court and charged, AS A CAUSE OF ACTION, the Clerk of
Wake County Superior Court, Jennifer Knox, in her individual capacity and under the color of
her authority, failed to properly process the Notice of Appeal. Now, this course leads through
the district and appellate courts procedures to date. In the United States District Court, it was
adjudged that the case was dismissed because the petitionee qualified for derivative immunity,
and the reason was because the petitionee was following the instructions of the court by not
adhering to the North Carolina General Statues regulating the appellate process. The petitioner
rebutted, the clerk's function was ministerial in nature which gives the clerk no-choice. So now,
the same can be said about the question presented in the Superior Court of Wake County,
when the petitioner questioned the abrogation of immunity. That is, the NCDOR is a ministerial
agency which is not qualified for absolute immunity, nor quasi immunity should the issue
involve a matter of constitutionality whereas, the Superior Court gave no account of the law.
Nor did the Superior Court follow the guidelines of No. 10 of Procedural Due Process law. The
United States Court of Appeals affirmed. The United States District Court has two judgments
16

where the petitioner is referenced as[ Brown 1 ](4:18-cv-199-FL [2/04/19] and [Brown 2] 4:19cv-108-FL [08/26/19]) and the appellate court has two (19-1500[07/18/19] and 192011[12/2019]) thereabout this single issue.

REASONS FOR GRANTING THE PETITION
THE UNITED STATE SUPREME COURT. RULE 10(a) a United States Court of Appeals (4th
Cir.) has entered a decision in conflict with the decision of the same United States Court of
Appeals (4th Cir.) on the same important matter; has decided an important federal question in a
way that conflicts with a decision by a state court of last resort; or has so far departed from the
accepted and usual course of judicial proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court's supervisory power.
The petitioner challenges the Order of the U.S. Court of Appeals which the court find no error
in the opinion below where the opinion below does conflict a prior 4th circuit opinion. Noted
the court did not give adherence to the 14th Amend. Due Process Procedure. No.10.
SUMMARYOF ARGUMENT
1.

Whether the U. S District Court erred (Brown 2) in adopting the U S Magistrate's
M & R, where it contains a misconception of other Fourth Circuit ruling.

A. Whether the district court misconceptualized in the standard of review,
the difference between a judicial act and the eligibility for derivative
immunity, and whether the district court is proper defending the Clerk of Superior
Court of Wake County
1.

Whether the Clerk of Superior Court vehemently interfered/abandoned (on purpose)
with petitioner's rights by denying him access to court's appellate system, creating the
violation of due process, equal protection of law, and Fourteenth Amendment of the
United States/North Carolina Constitutions.
2. Whether the District Court fails with bias under the Doctrine of Constitutional
Fairness and the First, Fifth and Fourteenth Amendments.
A. Whether the Conley Standard required a no dismissal.

17

ARGUMENT
THE PETITIONER ASKS THE HIGHEST COURT WHETHER A JUDICIAL NOTICE WOULD ALLOW
THE COURT THE POWER TO LOOK AT REFERENCES TO BETTER UNDERSTAND THE CONCERN FOR
WHICH THE CONSTITUTION MAY EMPOWER AND ASSIST HIM INTO HIS CASE AGAINST WHAT
MAY TRULY BE A WAR AGAINST HIS STATUTORY AND CONSTITUTIONAL PRIVILEGES AS A
UNITED STATES CITIZEN.
THE PETITIONER ASKS THE COURT TO TAKE A JUDICIAL NOTICE UNDER FEDERAL RULE OF
EVIDENCE 201(B) WHICH REQUIRES "FREE ACCESS TO JUDICIAL TRIBUNAL BY A NATURAL
INDIVIDUAL WITH A CONSTITUTIONAL RIGHT TO PETITION THE COURT SET BY "PRECEDENCE"
PURSUANT HAFER V. MELO. 502 U.S. 21, OFFICIALS AND JUDGES ARE DEEMED TO KNOW THE
LAW AND SWORN TO UPHOLD THE LAW; OFFICIALS AND JUDGES CANNOT CLAIM TO ACT IN
WILLFUL DEPRIVATION OF LAW, THEY CERTAINLY CANNOT PLEAD IGNORANCE OF THE LAW,
EVEN THE CITIZEN CANNOT PLEAD IGNORANCE OF THE LAW, THE COURTS HAVE RULED THERE
IS NO SUCH THING AS IGNORANCE OF THE LAW PURSUANT, COOPER V. AARON. 358 U.S. 1, 78
S. CT1401 (1958) "NO STATE LEGISLATOR OR EXECUTIVE OR JUDICIAL OFFICER CAN WAR
AGAINST THE CONSTITUTION WITHOUT VIOLATING HIS UNDERTAKINGS TO SUPPORT IT. ANY
DENIAL OF DUE PROCESS MUST BE TESTED BY THE "TOTALITY OF THE FACTS" BECAUSE LACK OF
DUE PROCESS MAY "CONSTITUTE A DENIAL OF FUNDAMENTAL FAIRNESS, SHOCKING TO THE
UNIVERSAL SENSE OF JUSTICE. (SEE APPENDIX: MCCRAY V. MARYLAND AND STUMP V.
SPARKMAN). MCCRAY COURT ESTABLISHES THAT CLERICAL AGENCIES AND OFFICERS ARE NOT
AFFORDED WITH ABSOLUTE IMMUNITY AND STUMP COURT ESTABLISHES THAT ONLY THE
JUDICIAL COMMUNITY IS PROTECTED WITH DERIVATIVE IMMUNITY.
THE PETITIONER ASKS THE COURTTO CONSIDER WHETHER THE ITEM IN APPENDIX WITH
HEADING 17 CVS 9850 SUPERIOR COURT OF WAKE COUNTY AND THE LISTED CITATIONS SHOW
(1) ANY AMBIGUITY OR CONTRARINESS JUXTAPOSING GUTHRIE V. NC PORT AUTHORITY AND
STANBACK V. STANBACK. THE PETITIONER CHALLENGES, IN GUTHRIE THE NC INDUSTRIAL
COMMISSION HOLD EXCLUSIVE JURISDICTION OVER THE TORT CLAIM ACT BUT WHETHER
STANBACK SAYS DIFFERENTLY. (2) PURSUANT, HALE V. HENKLE, 201 U.S. 43. A CITIZEN (PRO SE)
HAS THE CONSTITUTIONAL RIGHT TO STAND UP FOR HIMSELF/HERSELF AND REQUIRE ALL
FORMS OF DOCUMENTATION (3) IN THE SUPERIOR COURT EXISTS A SELF-AUTHORED DECISION
OF THE DEFENDANT/ REP., THE ASSIST. ATTY. GEN., HOWEVER IT MAY BE UNCONSTITUTIONAL.
PETITIONER DECLARES ALL CONDITIONS ARE MET IN NCGS SEC. 7A-45(B) THROUGH (F) AND
ASKS WHETHER EVIDENCE OBTAINED COULD INFLUENCE THE HIGH COURT.
The Petitioner comes to the United States Supreme Court with A FEDERAL QUESTION, 28
USC 1331 for which he invokes questions and challenge issues that originated in the OAH
18

and developed into a matter for the Superior Court of Wake County, Court of General
Jurisdiction.

The Superior Court is authoritative to hear all cases, regardless of the

specification. The argument presents the question whether the filing of the case 17 CVS 9850
was proper before the court, which, this argument supersedes the contested argument of
the North Carolina Office of Attorney General, who disputes that filing in the Superior Court
was not proper. Accordingly, the Assistant Attorney General stipulates, it would be more
properly filed with NC Industrial Commission. This argument doesn't give account to the NC
Gen. Stat., Sec. 105-241.17(3); the constitutionality of the statue. Therein, the petitioner
challenged, he was denied due process of law, where the defendant violated the Tort Claim
Act applicable to NCGS Sec. 105-241.17(3). Additionally, adverse matters generally take a
normal course through the NC Court of Appeals, but in this issue the petitioner was purposely
denied the access to the appellate process. The petitioner proclaims, the act committed by
the Clerk was truly intentional, willful, or wanton, as well, to this date the clerk has not
responded to the Notice of Appeal. Within this question, a matter exists which will question
whether the doctrine of mootness should apply, as far as, the OAH and the Superior Court of
Wake County proceedings are concerned.

Nevertheless, the petitioner will present this

reference to the highest court. That is, the petitioner had presented evidence to the OAH (1)
showing an installment agreement (Exhibit/Item 1) had been established on January 26,2017
and time stamped via computer, after receiving a Notice of Garnishment, dated January 5,
2017. The notice stated, action would be taken if the debt had not been resolved in 30 days.
It is inscribed within the Notice that it was sent
19

to the employer, Evans Seafood Transport Inc., which the appellant complained of
reputational damage; wherein, appellant questions whether the exigency factor rose to
where the need existed to offset the appellant's refunds. (2) the evidence the petitioner
presented showing the garnishment by IRS in less than 30 days, even though the installment
agreement had been established (3) a letter from the respondent (Exhibit/Item 4) returning
the garnished amount by April 15, 2017; establishing the truth in the petitioner's point of
view (4) defendant's Notice of Collection (June 2017) instituting a charge with interest for a
bill already paid (Exhibit/Item 10) with (Exhibit /Item 11) a NC State Employees Credit Union
draft receipt showing the proposed bill paid (5) the respondent's defense in Superior Court
was, the Secretary of Revenue had the right to act at any time after the Notice had been
merely mailed (See court transcript) (6) the OAH verifies and implicates the respondent in
No. 19, of its Final Order which petitioner presented distortion and harassment evidence
while contacting the respondent via telephone in March 2017. The petitioner brings to the
attention of the highest court, and challenges that this is where the matter of constitutional
privileges were initially denied. Though arguments in the Superior Court consisted of the
petitioner questioning the court whether abrogation of immunity is most concerned. Indeed,
the NCDORisa ministerial agencyfor which absolute immunity is barred, and quasi immunity
is limited where the NCDOR should had been aware of what consequences of the denial of
constitutional privileges of the petitioner would be. The petitioner brings to the attention of
the highest court, that the ORDER of December 5,2017, was self-authored
20

by the defendant (The Assistant Attorney General).

The argument is whether the

convenience of a self-authored order is unconstitutional, for it violates the Equal Protection
of Law Clause, under the circumstance. Further, the petitioner argues the question of liberal
construction in the Superior Court of Wake County, for which it seems that none existed. [See
Garrett v. Elko. 120 F. 3d 261,1997 WL 457667th Cir. (Aug. 12. 1997) wherein, it was noted
that when determining whether a pro se plaintiff's claim should withstand a motion to
dismiss, the district court should be allowed to, but not required, to look beyond the face of
the complaint to allegations made in any additional materials filed by the plaintiff. [See
DeSole v. United States of America. 947 F. 2d 1169 (4th Cir. 1993)] in reviewing a motion to
dismiss, the court should view the allegations of the complaint in the light most favorable to
the plaintiff. Mylan Labs v. Matkari. 7 F. 3d 1130 (4th Cir. 1993) cert, denied. 510 U.S. 1197
(1994) a motion to dismiss should be granted only where the plaintiff can prove no sets of
facts which would entitle him to relief. All three of these authorities shows that the court
implicates the defendant in this action. So, the state forum should not be any different, and
the appellant proclaims his authority in everyforum.
Did the United States District Court err in the adoption of the U S Magistrate's M & R,
when it recommended for the complaint to be dismissed because the clerk, Jennifer Knox,
has derivative immunity?
The appellant alleges, there exists within this case a variety of inconsistencies which violates
his equal protection of law rights, under the Fourteenth Amendment of the

21

United States Constitution. The appellant herein sets out to establish why he should prevail on
appeal. The appellant in this case asserts, this issue is a matter from record and the docket
speaks for itself or is axiomatic. The U. S Magistrate's M & R [Aug. 8, 2019] is catering to an
errant prior U S District Court Order [Apr. 4, 2019]. The appellant challenges, the M & R fails to
authoritatively recognize the absolute correctness of derivative immunity, and it fails to apply
the correctness to the errant "obedience to a court order". The central issue being, the M &. R
failed to recognize the named individual criteria of Section 1983. The district court overlooks
the named individual difference, in comparison, to the 4th Circuit's Bivens which was noted in
the Objection to the Magistrate's M & R.
The appellant here challenges the district court findings and legal contentions of law [Sept.
11, 2019] which he states there are inconsistencies in the points of view, as to whether the
higher court in McCray v. Maryland 456 F2d. 1,4 (1972) Myerv. Stoney, No. l:18-cv-00772
LMB-MSN (E.D. Va. June 21, 2018) where it was held that the negligent failure of a clerk of
court, in not filing the necessary papers to allow plaintiff access to post-conviction relief, was
actionable. Feb 29, 1972. This questions within a "standard of review" the court has opined on
the correctness applied to whether Jennifer Knox's role in the decision of Dec. 5, 2017,
according the U S Magistrate in the M & R of Aug. 8, 2019, was entitled to derivative immunity.

22

The appellant argues, the clerk would not be privy to derivative or quasi- immunity unless her
role was discretionary. According to the 4th circuit, the general rules for the clerk's functions
are to ministerial functions [no-choice]. Clerical responsibilities are not afforded the immunity
defense especially where the clerk impedes on constitutional guaranteed privileges.
To the effect that the clerk should had known or was expected to have known that this
violation would deprive the appellant of a statutory or constitutional privilege, is an
inconsistent fact.
In the event persistent controversy over the determination protocol prevails, that Jennifer
Knox's role in the decision (Dec. 5,2017) might had been adjudicative, the appellant argues the
history of association comparing the on record of the 4th Circuit to the answers received from
the Eastern District of North Carolina in this case. All the 4th Circuit Court's opinions have
indicated the difference between judicial immunity for the discretionary functions of officials to
the non-discretionary functions, namely, the ministerial functions. Since the 1956 Stump Court
to the 2018 Myer Court, all the 4th Circuit decisions are consistent with each other. Contrarily,
since Dec 5, 2017, issues regarding abrogation of immunity [(District Rulings: Dec. 5, 2017)
Superior Court, Dept of Rev is ministerial]. [District Court as applied to the clerk only: starting
with Apr. 4, 2019, Apr. 25, 2019, Aug. 8, 2019, Aug. 26, 2019 and Sep. 11, 2019] are inconsistent
with 4th Circuit; [particularly the district court error on Order, Apr. 4, 2019 p. 2, paragraph no. 2]
the district court cited the McCray Court erroneously, but all of this is moot because there is
23

a need for a Section 1983 claim to name an individual. The appellant asserts, in the M & R, Aug.
8, 2019, the U.S. Magistrate basically critiques erroneously the district court's error of Apr. 4,
2019 [citing the McCray Court]. The appellant argues, the district court on Apr. 4, 2019,
stipulates that the clerk is exempt under judicial immunity when her performance was obedient
to an order. The argument is the court never directed the clerk, and the example the appellant
gave was in his Sept. 9, 2019, filing, in Brown 2; wherefore, the decision given by the district
court on Aug. 26,2019 [the district court directed the clerk to close the case]. In Brown 2, in
respect to filing papers, according to the high court, 4th Cir. (1972) the clerk has no discretion
that merits insulation by a grant of absolute immunity; the act is mandatory. Her duty,
although associated with the court system, is not quasi-judicial (meaning entailing a discretion
like that exercised by a judge). Clerical duties are generally classified as ministerial pursuant
(McCray Court. 2 Harper & James. The Law of Torts, 1644 (1956) and the act of filing papers
with the court is as ministerial and inflexibly mandatory [a no-choice scenario] as any of clerk's
responsibilities. Immunities which have been read into Section 1983, derive from those existing
at common law pursuant, Pierson v. Ray, 386 U.S. supra at 554-555, 87 S.Ct. 1213,18 L.Ed.2d
288. A state officer is generally not immune under common law for failure to perform a
required ministerial act, 2 Harper & James, supra at 1645-46. For example, register of deeds
have been held liable in common law tort action for negligently failing to properly index a
mortgage. Thus, there is no basis for sheltering the clerk from liability under Section 1983 for
failure to perform a required ministerial act such as properly filing papers. The conclusion is
24

supported by cases such as Washington v. Official Court Stenographer, 251 F. Supp 945 (E.D.
Pa (1966) and Whirl v. Kern. 407 F. 2d 781 (5th Cir.) cert den. 396 U.S. 901. 90 Ct. 210. 24 L. Ed.
2d 177 (1969) (denying state ministerial officers' absolute immunity under Sec. 1983). The
appellant concludes, the court cannot deviate from such binding precedents, nor does it explain
explicitly and specifically how the clerk was discretionary (obedient to an order in
enumeration).
The appellant asserts, the district court, if measured, opinion is held in favor of judicial
immunity, which was applied to the Superior Court Judge, and this is the support given by the
M& Rthat preceded as a whole. What's defeating in this scenario is, the 4th Circuit is the
"standard of review" explaining the difference between discretionary and ministerial functions.
The inconsistencies the district court cites, "the appellant complaints are repetitive" [Sep. 11,
2019] even though the complaints argue the definitive position of the 4th Circuit; hence, the
district court is inconsistent forthwith [See Myer v. Stoney) held that quasi-immunity does not
extend to clerk's performance].
Summarily, the appellant's case is that the district court erred because of the Apr. 4, 2019
decision [although moot] and it based the appellant's allegation against Jennifer Knox, the clerk
of court, a state agent on that decision. The court deduced for reason(s) (1) the clerk is
derivatively immuned (2) clerk was following direction of the court (3) clerk was being obedient
to an order. The appellant filed a "new or actual claim" on July 29, 2019, and the US Magistrate
recommended on Aug. 8, 2019, for the case to be dismissed. This is because the issue was
25

already presented to the 4th circuit and affirmed on July 18, 2019, and because of derivative
immunity, this case should be dismissed as frivolous. Seemingly, your honor, in all these
occurrences is suggesting the issue faced by pro se litigant's attempts to re-litigate the issue is
without the assistance of a seasoned lawyer and already has been approved by the 4th circuit.
In saying this, the magistrate judge seemingly forces the issue. The difference in the two
situations, the first case in Brown 1, the appellant alleges, the 4th circuit affirmed because
Section 1983 requires (but it was absent) that the complaint needs to name an individual in
violation of deprivation of human rights [requiring that Jennifer Knox's name was present in
the caption, and she should had known this violation would deprive the appellant of a human
right]. The M & R, Aug. 8,2019, did not include the analysis that the Sec. 1983 requires a
named individual. The appellant filed the objection on Aug. 21, 2019, and the district court
adopted the M & R on Aug. 26, 2019. The appellant filed a Motion for Reconsideration on Sept.
9, 2019, and the district court filed a dismissal with rejection on Sept. 11, 2019. The M & R
specifically states that a named individual is of the current record. The appellant contests, the
name was not present in the April 4, 2019 order. The appellant then filed an appeal alleging
the district court erred, because of his enumerations no. (1) the district court is inconsistent
with the 4th Cir. McCray (1972) Myer (2018) and Stump Courts (1956) and a named individual
criteria is at center (2) there is no documentation of any written or oral directions issued by the
court, and FRCP 58, requires documentation into the court records where the record is selfactualized by the court (3) there can be no obedience to an order unless it's a discretionary
26

function, which no documentation exists to those accords; the McCray and Myer Courts
stipulates the clerk has no quasi immunity, her duty is ministerial [no-choice] associated with
the court system. The appellant complains with all this good reasoning, the court still sides
with the U S Magistrate, in an expression," your honor was cogent with the deliberation". The
appellant brings to the attention of the court, a named individual criterion was necessary.
Consequently, the background case of the Dept of Rev is an agency for which is a ministerial
administration for the State. Too, it is reminded the district court needs to explain by letter of
law, how the clerk was discretionary. The appellant challenges, although this background
matter could only be institutionalized in this Brown 2 issue as an aggravating factor, for he
requests that consideration. The NCDOR authoritatively should had known a violation, as such
in their field, would deprive both statutory and constitutional rights of this appellant. The
appellant challenges, if only one inconsistency prevails, the appellant would have a good case
for the equal protection of law violation. The appellant, in his Objection to the M & R, in the
attempt to meet the "standard of review" for the Conley Court, argued the criterion of the
Wood, Butz, and Stump Courts, which instituted four enumerated facts to reach a cause of
action. These three courts argued the immunity issue [when does the court abrogate
immunity]. As aforementioned, only judicial or discretionary activities gain the grant of
absolute immunity. If the appellee should had known or is expected to have known the act
would violate a constitutional or statutory privilege, it would disqualify supplemental immunity.
Added, the district court overlooked the appellant as for due diligence [a comprehensive
appraisal] rather, chose to adopt the Magistrate Judge's M & R. Since there are
27

several inconsistencies, how does the highest court deem this circumstance? The ministerial
functions are not absolutely immuned. All these issues are brought forth in the district court,
but the court erroneously did not allowthe appellant the construction of coordination. The
Conley Standard requires no dismissal. According to the 4th circuit, there should be no further
shielding; therefore, the court can no longer be hermetically sealing the courtrooms doors. The
defense must now answer the charge; wherefore, the appellant asserts, he is being deprived of
that answer. The appellant compellingly challenges the errors and inconsistencies of the
district court, and if McCray was interpreted properly under "sufficiency of allegations"
the appellant was barred from access to the court [constitutional deprivation of a human right].
The record/docket is axiomatic and serves as bonafide proof. In the foregoing argument, the
appellant asserts, Jennifer Knox, in her individual capacity as Clerk of Superior Court of Wake
County, denied him of statutory and constitutional privileges to file a Notice of Appeal to the
NC Court of Appeals pursuant, NC Gen. Stat. Subch. IX, Art. 27, Sec 1-277 and NCGS Ch. 14, Art
31, Sec. 14-230, Fourteenth Amendment Due Process of Law (Substantive and Procedural)
Equal Protection of Law; 42 USC Section 1983, Deprivation of Constitutional Rights. The
appellant alleges, his correctness is being refuted by an errant statement of the district court
with "obedience to an order" and the U S Magistrate's follow up to the support of an earlier
order with the supporting derivative immunity theory. This is a misconception of law which is
symbolic of thrashing a pro se litigant while depriving him of a constitutional privilege.

28

The appellant, here, brings to the attention to the highest court and questions whether this
matter conflicts with the high court's explicitness of the "Rule of Law." The argument persists,
the district court's analogy of" obedience to an order," does not meet the criterion of the
McCray and Stump Courts, which directly conflicts a rule of law authored by the Fourth Circuit.
There is no opposing law which might project some type of ambiguity. Second, the M & R in
Brown 2 comes and complements the earlier ruling of the district court creating a compound
error. Thirdly, the district court complements the U.S. Magistrate's M & R, which destroys the
appellant conceptualization of the court's explicitness of the "Rule of Law".
Considering the district court's ruling, did the four factors pursuant f Stump v. Sparkman
435 U.S. 349 (1978) in determining under the court's "standard of review" whether an act
could be declared as "a judicial act", play any role in deciding whether Jennifer Knox is
obedient to an order, or is eligible for derivative immunity?
The appellant, herein, challenges the district court's findings and contentions of law, that obedient to
the order is the district court's actual position [Apr. 4, 2019, Order] (1) Jennifer Knox was charged with
the duties and responsibilities pursuant [NCGen.Stat.Subch.IXArt. 27, Secl-277 and NCGSCh. 14, Art
31, Sec 14-2301 that is, because most of the time the actual ministerial functions are performed by her
deputies, who performs the court's duties and responsibilities. Fora judicial act to be performed, the
clerk must come underthe fourfactors which are enumerated underthe Stump Court. Jennifer Knox's
disposition comes under none of the fourfactors, whereas, the clerk is not considered in this case as
part of the judicial community. The appellant challenges whether the district court's position in this
29

circumstance is adequate. He persists, any implementation of the rule which requires documentation
in the court record system, for which there is no documentation to prove any other, showingthis to be
true; the court docket is self-actualized. Therefore, unless the clerk was linked by discretion or was
directly ordered eitherorally [see transcript] or written in the decision of Dec. 5, 2017, it is alleged that
it is improperto maintain that the clerk was otherthan ministerial in nature. We cannot conclude
under" standard of review" the clerk was obedient to the order, which was the district court original
intent in the decision on Apr. 4, 2019. The docket does not show discretionary activity, nor does the
transcript show directing, and the order does not include written directions (2) for the clerk to have
derivative immunity, which was the M & R of Aug. 8, 2019 the clerk must have performed a
discretionary function, which she did not. Neitherthe district court in a prior decision, nor the M & R is
consistent with the 4th circuit. The appellant asserts, the derivative immunity would be reduced, in this
case, to quasi immunity, but the clerk is ineligible forthe quasi-immunity due to the fact her certification
requires that she should have known or is expected to have known this violation would deprive the
appellant's statutory and constitutional right to established laws. Again, the court docket is prevalent
in this circumstance, and it indicates no record of discretionary activity forthe clerk. Additionally, the
appellant brings to the attention of the court that he did not raise the matter concerning the
authentication of the court transcript, where it does not indicate any oral directions of the court for the
clerk not to acknowledge the appellant's Notice of Appeal. Even though, according to Bell Atlantic v.
Twombly, there is enough material in the "short and plain" statement forthe court to reasonably draw a
legal inference from the face that a violation occurred for which relief could be granted (See OAH Final
OrderStatement No. 19). Otherwise, there is no written instructions from the court instructing the
clerk to abandon the appellant's Notice. This all is nevertheless moot, but still, it violates Equal
Protection of Law.
30

Did the district court err on the question of whetherthe Clerk of the Superior of Wake County
interfered (on purpose) with his rights by denying him access to the court system, and effectively
ignoring his Notice of Appeal?
The appellant, herein challenges the district court's findings and contentions of law, wherein th e
Clerk of Superior Court of Wake County, Jennifer Knox, a state actor, (1) under the color of her
authority denied him of his privilege to file a Notice of Appeal to the NC Court of Appeals. (2)
by denying the appellant the appeal process, the clerk deprived him of a statutory right,
constitutional privilege, and the Equal Protection of Law pursuant, NC Gen. Stat. Subch. IX Art.
27, Sec 1-277 and NCGS Ch. 14, Art 31, Sec 14-230, Haines v. Kerner. 404 U.S. 519, 92 S. Ct. 594,
30 L. Ed.2d 652 (1972) argued a pro se petitioner's right to argue where a deprivation of human
rights is existing. In Boddie v. Connecticut. 401 U.S. 371, 376, 91 S.Ct. 780, 28 L.Ed.2d 113
(1971) (access to courts protected by due process clause). In Chambers v. Baltimore &
Ohio"Railroad Co..207 U.S. 142, 28 S. Ct. 34, 52 L. Ed. 143 (1907) (access to courts is a privilege
of American citizenship protected by the Fourteenth Amendment). In Ginsburg v. Stern, 125
F.Supp. 596, 601 (W.D.Pa.1954) (clerk's failure to file papers would be a "patent" violation of
constitutional rights) (dictum). Cf. In California Motor Transport Co. v. Trucking Unlimited, 404
U.S. 508, 92 S.Ct. 609, 30 L.Ed.2d 642 (1972) (access to courts is "part of the right to petition
protected by the First Amendment") 42 USC Section 1983, Deprivation of a Constitutional Right,
Equal Protection of Law, under The Fourteenth Amend. Liken to Bivens v. Six Unknown Named
Federal Narcotic Agents 403 US 388 (1971) which deprived Bivens of his constitutional human
rights, hence was a good reason for a cause of action. Comparatively, appellant in Brown 1 did
31

not name the clerk, Jennifer Knox. Here the appellant proclaims, he is entitled to correct his
known error on that behalf; wherefore, he names an individual in a Brown 2 cause of action, for
which relief could be granted.

Does the Conley Standard place an opinion upon the court, of the Stump Court's four factors of the
roles which qualifies a judicial act, which institutionalize within the Conley Standard pursuant, [NC
Gen.Stat. Subch. IX Art. 27. Sec 1-277 and NCGSCh. 14. Art 31. Sec 14-2301?

The appellant argues, those Stump Court factors are included within the theory which
suggests a recognizable element that the argument against immunity, in general, and
obedience to a court order carries a grade of plausibility. The appellant argues, the district
court is inconsistent in opinion of the McCray and Stump Courts. According to the 4th Cir., the
McCray Court institutes, the clerk is generally ministerial in nature, and the Stump Court
institutes the immunity is limited to the judicial community only. Stump, in fact, eliminates the
clerkasjudicial, and declaresthe clerk ministerial. There are no other documented factors
qualifying discretional activity. Therefore, the appellant argues the existing controversy in the
Order, Aug. 26, 2019, the district court wrote, "upon de novo review of the M&R to the
appellant's objections, the court ADOPTS analysis of the Magistrate Judge, which thoroughly
and cogently addresses issues raised by the appellant in his objections". The appellant
challenges, as aforementioned, as he explained the 4th Circuit's opinion relating to derivative
immunity. The Magistrate Judge was inconsistent with the 4th Circuit, and the district court
praised his position. Then, the court directed the clerk to close the case.

32

Additionally, the Order of Aug. 26, 2019, the appellant challenges the court's purpose of the
usage of 28 USC Sec 1915 (e) (2) (B). This section is referring to (e) (2) that the court may
dismiss a pauper's claim at anytime, if the court determines that_(B) the appellant's action or
appeal (I) is frivolous or malicious, where the appellant argues the only reason his claim is
frivolous is that he isn't permitted the establishment that Jennifer Knox, as clerk, is not
immuned as aforementioned. Additionally, in the issues above, the appellant well argues a
cause of action. The appellant argues, the 4th Circuit's opinion in Stump's four factor qualifying
a judicial act, and McCray Court establishing the clerk's function is ministerial should defeat
being frivolous. However, the appellant asserts, he needs the high court's attention to whether
comes now a grandiose misconception of what is considered the judicial community. Clerical
functions are not absolutely immuned. In fact, because the clerk should had known or at least
is expected to have known that a violation would deprive the appellant's statutory and
constitutional rights, and this would as well disqualify the quasi-immunity for the clerk of court.
This is commonly known in the McCray ruling. In (ii) fails to state a claim for which relief may
be granted. The appellant argues, Section 1983, deprivation of constitutional right might be
self-actualized i.e. names an individual therefore it defeats the district court's position as for his
cause of action, plus self- actualizes the equal protection of law clause (iii) seeks monetary
relief against a defendant who is immuned from such relief. Again, defendant is not immuned
under Section 1983. The appellant raises the issue that abandonment/interference, and
neglect (done purposely) is tall standing, because none of the facts presented by the
33

Magistrate Judge extends beyond the 4th Circuit's opinion. The position the Magistrate Judge
seems most positive on, is that the 4th Circuit has indicated in the July 2019, Judgement to be
partial with the district court. The District Court nor the Magistrate Judge ruled that the
appellant's "new or actual" case was not proper in the court beginning July 29, 2019, thus,
petitioner maintains on the grounds that the court can be no more than to admonish the
appellant on any further filings on this same subject. The appellant argues whether it is
reasonable to maintain the 1972, 4th circuit opinion. The appellant maintains, this filing in
Brown 2, is brought because the district court is inconsistent with the 4th Circuit, and the
associated citations. The appellant challenges the partiality to the defense "i e" the unduly and
excessively problematic favoritism, and prays that the court, in the "objective" interest of
justice, adheres to the appellant's Equal Protection of Law Clause in the Fourteenth
Amendment of the United States Constitution. The appellant contests, he is failed by the
errant district court on "obedience to the order" ruling but regards the obedience to the order
should not stand, unless there are discretionary ties, which there is not. Next, the appellant is
victim to the U S Magistrate M & R's errant derivative immunity ruling. The clerk is limited to
ministerial functions, unless there are discretionary ties, which there is not. Thirdly, the district
court overlooks in the Motion for Reconsideration, and erroneously praises the errant M & R.
The appellant argues, equal protection of law, illegal procedure, and the forcing of the issue is a
drastic misconception of the rule of law.
How does the court conceptualize constitutional fairness as it may apply to the neglect,
abandonment, and the resulting governmental interference which purposely deprives the

34

appellant?
The appellant brings before the court a challenging question relating to the equal protection
of law, due process of law, and bias for which is addressed in the U S Constitution for the
governing of the American Justice System. The district court has overlooked the concept of
"ordered liberty" and the appellant now comes addressing for due recognition authorized by
the Fourteenth Amendment. The absolute truth within the concept of fundamental fairness as
it engages with the constitutional doctrine of deprivation of human rights, is infinitely a large
question of law in the American Justice System. The court may apply the laws of due process
which concerns procedural and substantive. In the United States Constitutional Law,
substantive due process is a principle allowing courts to protect certain fundamental rights
from government interference, even if procedural protections are present or the rights are not
specifically mentioned elsewhere in the US Constitution. Here, the appellant asserts [FRCP,
Rule 58] regulating documentation, and its absenteeism thereabout. Documentation [the
docket] shows that the clerk did not properly and adequately process the appellant's Notice of
Appeal to the accords of The NC General Statues. Therefore, this violates the concept of
"ordered liberty" authorized by the Fourteenth Amendment* which is the court's implicit rule
(Argued in Appellant's Objection to M & R). That is, generally substantive due process is from a
"deeply rooted Nation's history and traditions". A challenging question that remains is, in
considering the court's implicit rule and "ordered liberty" which the district court overlooked
[FRCP, R. 58, McCray, Stump, Conley, Haines Courts, and Sec. 1983] what depth of assessment
would the court place on the deprivation of the historical appeal process when it was done
35

on purpose. And, how would the doctrine of reasonable doubt effect this circumstance?
The appellant complains, fairness is not applied when the district court denies the appellant his
cause of action, and its doubling. Plainly, the wrong is done when the defendant is not served
with complaint and summons, as the court instructed the appellant to submit. The wrong is
done when the 1st Amend. (Bill of Rights) is violated, whereas, the government is prohibited
from interfering with citizens petitioning for a governmental redress of grievances which
applies to this clerk in Brown 2. As well, the 5th Amend, procedural due process clause is
violated, when the clerk denies the appellant rights to NC Gen. Stat. Subch. IX Art. 27, Sec 1-277
and NCGS Ch. 14. Art 31, Sec 14-230; 5th and 14th Amend. Due Process Clause, Equal Protection
of Law" A Rule of Law" Price v. Barry, 53 F 3d. 366 (Price v. Barry argued in Sep. 9, 2019 filing.
p. 3) petitioner questioned rights to argue based upon his liberty rights. The appellant
challenges, the protection of the fundamental right to be free of governmental interference
that it is not observed in Brown 2's situation. This question of "rule of law" goes all the way
through the error which the district court has overlooked (rule of law) depriving the appellant.
In Bowers v. Hardwick. 478 US 186,189 (1986) an individual brings a Due Process claim against
a state claiming interference with a fundamental right, it is the state's responsibility to
demonstrate the compelling nature of its interest and the necessity of the chosen means. In
other words, the state, and not the plaintiff, carries the burden of proof when the "strict
scrutiny standard" is applied. Then, the court of appeals must give adherence to the 14th
Amend. Due Process Procedure. No.10. The court needs to explain explicitly it's opinion on
how the clerk was discretionary on Dec. 5,2017.
36

CONCLUSION
The appellant concludes this argument that he firmly petitions the highest court for this Writ
of Certiorari by bringing to the attention of the court existing constitutional unfairness for
which he questions; namely whether The United States District Court for the Eastern District of
North Carolina and the US Magistrate has presented an errant twist. The appellant argues,
surely there should be a reasonable doubt in whether this issue has been legally dismissed
under the Conley Standard. Because at least one factor from The Stump Court prevails, stating
what's considered judicial community, which should allow him the protection under the Due
Process and the Equal Protection of Law Clauses. The appellant argued vehemently to the
correctness applied by the Court of Appeals in McCray to what is accepted as ministerial in
nature, and prays to the highest court adherence, as a matter of policy. As well, the appellant
has argued the purposely interference of a fundamental right to be free to petition the
government for redress of a grievance. Also, has asked for supervision on three separate issues
that may be a question of unconstitutionality in the Superior Court of Wake County (1) NCGS
Sections 105-241.23(a) and 105-237 (2) the difference between Guthrie and Stanback Courts (3)
a matter of jurisdiction in the Superior Court. Then, one standing issue which the court of
appeals might have violated the procedural due process, requirement no 10. Finally, does a pro
se pauper have the constitutional right to stand up for himself/herself (See Gideon v.
Wainwright).

37

INDEX

Question(s) Presented
LIST OF PARTIES
TABLE OF CONTENTS
INDEX OF APPENDICES
TABLE OF AUTHORITES CITED
PETITION FOR WRIT OF CERTIORARI
OPINION BELOW
STATEMENT OF JURISDICTION
CONSTITUTIONAL PROVISIONS INVOLVED
STATUTORY PROVISIONS INVOLVED
UNITED STATES CODES INVOLVED
FEDERAL RULES OF CIVIL PROCEDURES INVOLVED
FEDERAL RULES OF EVIDENCE
NORTH CAROLINA RULE OF CIVIL PROCEDURES INVOLVED
PUBLICATIONS
STATEMENT OF THE CASE
REASON FOR GRANTING THE PETITION
SUMMARY OF ARGUMENT
ARGUMENT
INDEX
APPENDIX
PROOF OF SERVICE

38

APPENDIX
The Office of Administration Hearings (17 Rev 03355) filed July 28,201
A court should dismiss an action for want of subject matter jurisdiction only "if the material
jurisdiction facts are not in disputed and the moving party is entitled to prevail as a matter of
law". Evans v, B. F. Perkins Co. 166 f. 3d 642, 6447 (4th Cir. 1999) (quoting Richmond
Fredericksburg & Potomac R. Co. V. U. S„ 945 F. 2d 765, 768 (4th Cir. 1991). In a ruling on
motion to dismiss for lack of jurisdiction, the court may consider materials beyond the bare
pleadings. Evans 166 F., 3d at 647. When a court reviews the sufficiency of a complaint. Before
the reception of any evidence, its task is necessarily a limited one. The issue is not whether a
plaintiff will ultimately prevail but whether the claimant is entitled to offer evidence to support
the claims, Scheuer v. Rhodes. 416 U. S. Ct. 1683 (1974) S. 232, 94 When a ruling on a motion to
dismiss, the court must determine "whether, as a matter of law, the allegations of the
complaint... are sufficient to state a claim upon which relief may be granted" Harrisv. NCNB, 85
NC. App 669. 355 S.E. 2d 838 (1987). In Hyde v. Abbot Lab., Inc. 123 NC App. 572 473 S.E. 2d
680 (1996). The court must construe the complaint liberally (Branch Banking &Trust Co. V.
Lighthouse Fin. Corp., 2005 NCNB 3 (N. C. Super. Ct. July 13, 2005) and in the light most
favorable to the pleader (the Petitioner). (See Scheuer) When the allegations in the complaint
give sufficient notice of the wrong complained of, an incorrect choice of legal theory should not
result in dismissal of the claim if the allegations are sufficient to state a claim under legal
theory. Stanback v„ Stanback. 297 N.C. 181. 254 S. E. 2d 611 (1979).

Superior Court of Justice, Superior Court Division 17 CVS 9850, filed Dec. 5,2017
As a matter of law the action of the Plaintiff is barred by Sovereign Immunity, that this Court
does not have subject matter jurisdiction, and that the Plaintiff's complaint, as amended, fails
to state a claim for which relief can be granted pursuant, N.C. R. Civ. P. 12(b)(1) and 12(b)(6).
The doctrine of Sovereign Immunity is well-established. The United States Supreme Court has
recognized that states are not ordinarily subject to suits by their citizens. Hans v. Louisiana. 134,
U. S. 1. 21. IQS. Ct. 504. 509, 33L. Ed. 842. 849 (1890). The North Carolina Supreme Court
similarly recognized Sovereign Immunity, observing, "It is axiomatic that the sovereign cannot
be sued in its own courts or in any other without its consent and permission.
The State may be sued in tort only as authorized in the" Guthrie v. NC Port Authority, 307 N.C.
at 535, 299 S.E.2d at 618, 625 (1983). The State Tort Claim Act, N.C. Gen. Stat. Sec. 143-291, et
seq.. provides that jurisdiction over tort claims against the state and its agencies is exclusively
with the North Carolina Industrial Commission. See Green V. Kearney, 203 NC App. 260, 271272, 690 SS. E. 2d 755, 764 (2010) (internal citations omitted). Where the action is barred by

39

sovereign immunity, this Court lacks subject matter and personal jurisdiction. See Battle Ridge
Cos. V. NC Dept of Transp.. 161 NC App 156.157 587 SE 2d 426. 427 (2003) rev denied 258 NC
233, 594 S.E.2d 191 (2004)(recognizing that the Court of Appeal has dismissed actions under
both NC R Civ. P. 12(b)(1) and 12A(b)(2) where there has been no waiver of "sovereign
immunity).

NORTH CAROLINA GEN. STAT. ART. 31 SEC. 143-291
Industrial Commission constituted a court to hear and determine claims; damages; liability
insurance in lieu of obligation under Article.
(a)

The North Carolina Industrial Commission is hereby constituted a court for the purpose

of hearing and passing upon tort claims against the State Board of Education, the Board of
Transportation, and all other departments, institutions and agencies of the State. The Industrial
Commission shall determine whether or not each individual claim arose as a result of the
negligence of any officer, employee, involuntary servant or agent of the State while acting within
the scope of his office, employment, service, agency or authority, under circumstances where
the State of North Carolina, if a private person, would be liable to the claimant in accordance
with the laws of North Carolina. If the Commission finds that there was negligence on the part of
an officer, employee, involuntary servant or agent of the State while acting within the scope of
his office, employment, service, agency or authority that was the proximate cause of the injury
and that there was no contributory negligence on the part of the claimant or the person in whose
behalf the claim is asserted, the Commission shall determine the amount of damages that the
claimant is entitled to be paid, including medical and other expenses, and by appropriate order
direct the payment of damages as provided in subsection (al) of this section, but in no event shall
the amount of damages awarded exceed the amounts authorized in G.S. 143-299.2 cumulatively
to all claimants on account of injury and damage to any one person arising out of a single
occurrence. Community colleges and technical colleges shall be deemed State agencies for
purposes of this Article. The fact that a claim maybe brought under more than one Article under
this Chapter shall not increase the foregoing maximum liability of the State.
(a)
The unit of State government that employed the employee at the time the cause of
action arose shall pay the first one hundred fifty thousand dollars ($150,000) of liability, and the
balance of any payment owed shall be paid in accordance with G.S. 143-299.4.

40

(b)
If a State agency, otherwise authorized to purchase insurance, purchases a policy of
commercial liability insurance providing coverage in an amount at least equal to the limits of the
State Tort Claims Act, such insurance coverage shall be in lieu of the State's obligation for
payment under this Article.
(c)
The North Carolina High School Athletic Association, Inc., is a State agency for purposes
of this Article, and its liability in tort shall be only under this Article. This s does not extend to any
independent contractor of the Association. The Association shall be obligated for payments
under this Article, through the purchase of commercial insurance or otherwise, in lieu of any
responsibility of the State or The University of North Carolina for this payment. The Association
shall be similarly obligated to reimburse or have reimbursed the Department of Justice for any
expenses in defending any claim against the Association under this Article.
(d)
Liability in tort of the State Health Plan for Teachers and State Employees for
noncertifications as defined under G.S. 58-50-61 shall be only under this Article

NORTH CAROLINA GEN. STAT.. SUBCH. IX. SEC. 1-277
1-277. Appeal from superior or district court judge, (a) An appeal may be taken from every
judicial order or determination of a judge of a superior or district court, upon or involving a
matter of law or legal inference, whether made in or out of session, which affects a substantial
right claimed in any action or proceeding; or which in effect determines the action, and prevents
a judgment from which an appeal might be taken; or discontinues the action, or grants or refuses
a new trial, (b) Any interested party shall have the right of immediate appeal from an adverse
ruling as to the jurisdiction of the court over the person or property of the defendant or such
party may preserve his exception for determination upon any subsequent appeal in the cause.

NORTH CAROLINA GEN. STAT. CH. 14. ART. 31. SEC. 14-230
14-230. Willfully failing to discharge duties.
(a)
If any clerk of any court of record, sheriff, magistrate, school board member, county
commissioner, county surveyor, coroner, treasurer, or official of any of the State institutions, or
of any county, city or town, shall willfully omit, neglect or refuse to discharge any of the duties of
his office, for default whereof it is not elsewhere provided that he shall be indicted, he shall be
guilty of a Class 1 misdemeanor. If it shall be proved that such officer, after his qualification,
willfully and corruptly omitted, neglected or refused to discharge any of the duties of his office,
or willfully and corruptly violated his oath of office according to the true intent and meaning
thereof, such officer shall be guilty of misbehavior in office, and shall be punished by removal
therefrom under the sentence of the court as a part of the punishment for the offense.
(b)
No magistrate recusing in accordance with G.S. 51-5.5 may be charged under this
section for recusal to perform marriages in accordance with Chapter 51 of the General Statutes.
41

Records Kept by the Clerk
Primary tabs
(a) Civil Docket.
(1) In General. The clerk must keep a record known as the "civil docket" in the form and manner
prescribed by the Director of the Administrative Office of the United States Courts with the
approval of the Judicial Conference of the United States. The clerk must enter each civil action
in the docket. Actions must be assigned consecutive file numbers, which must be noted in the
docket where the first entry of the action is made.
(2) Items to be Entered. The following items must be marked with the file number and entered
chronologically in the docket:
(A) papers filed with the clerk.
(B) process issued, and proofs of service or other returns showing execution; and
(C) appearances, orders, verdicts, and judgments.
(3) Contents of Entries; Jury Trial Demanded. Each entry must briefly show the nature of the
paper filed or writ issued, the substance of each proof of service or other return, and the
substance and date of entry of each order and judgment. When a jury trial has been properly
demanded or ordered, the clerk must enter the word "jury" in the docket.
(b) CivilJudgments and Orders. The clerk must keep a copy of every final judgment and
appealable order; of every order affecting title to or a lien on real or personal property; and of
any other order that the court directs to be kept. The clerk must keep these in the form and
manner prescribed by the Director of the Administrative Office of the United States Courts with
the approval of the Judicial Conference of the United States.
(c) Indexes; Calendars. Under the court's direction, the clerk must:
(1) keep indexes of the docket and of the judgments and orders described in Rule 79(b);
(2) prepare calendars of all actions ready for trial, distinguishing jury trials from nonjury trials,
(d) Other Records. The clerk must keep any other records required by the Director of the
Administrative Office of the United States Courts with the approval of the Judicial Conference
of the United States.

NORTH CAROLINA GEN. STAT. SEC. 105-237

42

Sec. 105-237. Waiver; installment payments, (a) Waiver. -The Secretary may, upon making a
record of the reasons therefor, do the following: (1) Reduce or waive any penalties provided
for in this Subchapter. (2) Reduce or waive any interest provided for in this Subchapter on taxes
imposed prior to or during a period for which a taxpayer has declared bankruptcy under
Chapter 7 or Chapter 13 of Title 11 of the United States Code, (b) Installment Payments. - After
a proposed assessment of a tax becomes final, the Secretary may enter into an agreement with
the taxpayer for payment of the tax in installments if the Secretary determines that the
agreement will facilitate collection of the tax. The agreement may include a waiver of penalties
but may not include a waiver of liability for tax or interest due. The Secretary may modify or
terminate the agreement if one or more of the following findings is made: (1) Information
provided by the taxpayer in support of the agreement was inaccurate or incomplete. (2)
Collection of tax to which the agreement applies is in jeopardy. (3) The taxpayer's financial
condition has changed. (4) The taxpayer has failed to pay an installment when due or to pay
another tax when due. (5) The taxpayer has failed to provide information requested by the
Secretary. The Secretary must give a taxpayer who has entered into an installment agreement
at least 30 days' written notice before modifying or terminating the agreement on the grounds
that the taxpayer's financial condition has changed unless the taxpayer failed to disclose or
concealed assets or income when the agreement was made or the taxpayer has acquired assets
since the agreement was made that can satisfy all or part of the tax liability. A notice must
specify the basis for the Secretary's finding of a change in the taxpayer's financial condition.

NORTH CAROLINA GEN. STAT. SEC. 105-241.23
Sec. 105-241.23. Jeopardy assessment and collection.
(a)
Action. - The Secretary may at any time within the statute of limitations immediately
assess and collect any tax the Secretary finds is due from a taxpayer if the Secretary determines
that collection of the tax is in jeopardy and immediate assessment and collection are necessary
in order to protect the interest of the State. In making a jeopardy collection, the Secretary may
use any of the collection remedies in G.S. 105-242 and is not required to wait any period before
using these remedies. Within 30 days after initiating a jeopardy collection, the Secretary must
give the taxpayer the notice of proposed assessment required by G.S. 105-241.9.
(b)
Review by Department. - Within five days after initiating a jeopardy collection that is
not the result of a criminal investigation or of a liability for a tax imposed under Article 2D of this
Chapter, the Secretary must provide the taxpayer with a written statement of the information
upon which the Secretary relied in initiating the jeopardy collection. Within 30 days after receipt
of this written statement or, if no statement is received, within 30 days after the statement was
due, the taxpayer may request the Secretary to review the action taken.
43

After receipt of this request, the Secretary must determine whether initiating the jeopardy
collection was reasonable under all the circumstances and whether the amount
assessed and collected was reasonable under all the circumstances. The Secretary must give
the taxpayer written notice of this determination within 30 days after the
Judicial Review. - Within 90 days after the earlier of the date a taxpayer received or
(c)
should have received a determination of the Secretary concerning a jeopardy collection under
subsection (b) of this section, the taxpayer may bring a civil action seeking review of the jeopardy
collection. The taxpayer may bring the action in the Superior Court of Wake County or in the
county in North Carolina in which the taxpayer resides. Within 20 days after the action is filed,
the court must determine whether the initiation of the jeopardy collection was reasonable under
the circumstances. If the court determines that an action of the Secretary was unreasonable or
inappropriate, the court may order the Secretary to take any action the court finds appropriate.
If the taxpayer shows reasonable grounds why the 20-day limit on the court should be extended,
the court may grant an extension of not more than 40 additional days. (2007-491, s. 1.)
Gideon v. Wainwright, 372 U.S. 335 (1963), is a landmarkcase in United States Supreme Court
history. In it, the Supreme Court unanimously ruled that states are required under the Sixth
Amendment of the U.S. Constitution to provide an attorney to defendants in criminal cases who
are unable to afford their own attorneys. The case extended the rightto counsel, which had been
found under the Fifth and Sixth Amendments to impose requirements on the federal
government, by imposing those requirements upon the states as well.

Z4/ 2020
PETITIONER

DATE

44

